<html>
<title> - THE ECONOMIC IMPACT OF AMERICA'S FAILURE TO CONTAIN THE CORONAVIRUS</title>
<body><pre>[Senate Hearing 116-393]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-393
 
  THE ECONOMIC IMPACT OF AMERICA'S FAILURE TO CONTAIN THE CORONAVIRUS

=======================================================================

                            VIRTUAL HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2020

                               __________

          Printed for the use of the Joint Economic Committee
          
          
          
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
          


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
42-188                 WASHINGTON : 2021         
        
        
        
                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

SENATE                               HOUSE OF REPRESENTATIVES
Mike Lee, Utah, Chairman             Donald Beyer Jr., Virginia, Vice 
Tom Cotton, Arkansas                     Chair
Rob Portman, Ohio                    Carolyn Maloney, New York
Bill Cassidy, M.D., Louisiana        Denny Heck, Washington
Ted Cruz, Texas                      David Trone, Maryland
Kelly Loeffler, Georgia              Joyce Beatty, Ohio
Martin Heinrich, New Mexico          Lois Frankel, Florida
Amy Klobuchar, Minnesota             David Schweikert, Arizona
Gary C. Peters, Michigan             Darin LaHood, Illinois
Margaret Wood Hassan, New Hampshire  Kenny Marchant, Texas
                                     Jaime Herrera Beutler, Washington

                Vanessa Brown Calder, Executive Director
                 Harry Gural, Democratic Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              

                     Opening Statements of Members

Hon. Donald Beyer Jr., Vice Chair, a U.S. Representative from 
  Virginia.......................................................     1
Hon. Mike Lee, Chairman, a U.S. Senator from Utah................     3

                               Witnesses

Dr. Ashish Jha, M.D., M.P.H., Dean, Brown University School of 
  Public Health, Providence, RI..................................     6
Dr. Austan D. Goolsbee, Robert P. Gwinn Professor, University of 
  Chicago, Booth School of Business, Chicago, IL.................     8
Dr. Jeffrey A. Singer, M.D., F.A.C.S., Senior Fellow, CATO 
  Institute, Washington, DC......................................    10
Dr. Adam Michel, Senior Policy Analyst, Grover M. Hermann Center 
  for the Federal Budget, The Heritage Foundation, Washington, DC    12

                       Submissions for the Record

Prepared statement of Hon. Donald Beyer Jr., Vice Chair, a U.S. 
  Representative from Virginia...................................    38
Prepared statement of Hon. Mike Lee, Chairman, a U.S. Senator 
  from Utah......................................................    39
Prepared statement of Dr. Ashish Jha, M.D., M.P.H., Dean, Brown 
  University School of Public Health, Providence, RI.............    41
Prepared statement of Dr. Austan D. Goolsbee, Robert P. Gwinn 
  Professor, University of Chicago, Booth School of Business, 
  Chicago, IL....................................................    50
Prepared statement of Dr. Jeffrey A. Singer, M.D., F.A.C.S., 
  Senior Fellow, CATO Institute, Washington, DC..................    52
Prepared statement of Dr. Adam Michel, Senior Policy Analyst, 
  Grover M. Hermann Center for the Federal Budget, The Heritage 
  Foundation, Washington, DC.....................................    59


  THE ECONOMIC IMPACT OF AMERICA'S FAILURE TO CONTAIN THE CORONAVIRUS

                              ----------                              


                      TUESDAY, SEPTEMBER 22, 2020

                    United States Congress,
                          Joint Economic Committee,
                                                    Washington, DC.
    The WebEx virtual hearing was convened, pursuant to notice, 
at 2:30 p.m., in Room G-01, Dirksen Senate Office Building, 
Hon. Donald S. Beyer Jr., Vice Chair, presiding.
    Representatives present: Beyer, Frankel, Herrera Beutler, 
Schweikert, Beatty, and Trone.
    Senators present: Lee, Klobuchar, Cassidy, Hassan, and 
Peters.
    Staff present: Robert Bellafiore, Vanessa Brown Calder, 
Barry Dexter, Harry Gural, Colleen J. Healy, Christina King, 
Nita Somasundaram, Kyle Treasure, Jackie Varas, and Emily Volk.

OPENING STATEMENT OF HON. DONALD BEYER JR., VICE CHAIR, A U.S. 
                  REPRESENTATIVE FROM VIRGINIA

    Vice Chairman Beyer. Today's hearing will be unlike almost 
every hearing held by the U.S. Congress Joint Economic 
Committee, because most often our hearings simply explore 
economic issues. Today, we are going to focus on public health.
    When the explosion of coronavirus cases in March caused 
massive unemployment in April, JEC Democrats reached out to 
some of the most prominent economists and public health experts 
in the country.
    Two Nobel Prize Laureates, two winners of the John Bates 
Clark Medal, five former Chairs of the President's Council of 
Economic Advisers, and three former Presidents of the National 
Economic Association--over two dozen in all. And every one of 
them conveyed the same urgent message: The top priority for 
healing our crippled economy is to contain the coronavirus.
    Economist Austan Goolsbee, here with us today, has put it 
this way, quote: ``The number one rule of virus economics is 
that you have to stop the virus before you can do anything 
about the economics.''
    And yet, tragically, we have failed to control the virus. 
Two hundred thousand Americans are dead--more than we lost in 
World War I, the Korean War, and Vietnam combined. The United 
States has only 4 percent of the world's population, but 
approximately 21 percent of the worldwide deaths.
    There have been 7 million confirmed cases of COVID-19 in 
the United States--and this is likely a severe undercount. And 
the number of cases continues to explode, with about 40,000 new 
positive tests a day.
    As a result of this crisis, the economy has suffered a 
severe blow. There are nearly 12 million fewer jobs today than 
we had in February. The official unemployment rate is 8.4 
percent--almost two-and-a-half times what it was in February.
    Federal Reserve Chairman Jerome Powell says that the actual 
rate could actually be 3 percent higher due to problems with 
misclassifying workers and differentiating those who have left 
the labor force from the unemployed. Three point four million 
U.S. workers are now permanently unemployed, and that number 
continues to rise. Almost 30 million depend on an unemployment 
check to survive. Two hundred thousand deaths, economic 
devastation, a contagion still out of control
    Tragically, no one person in our country is more 
responsible than the person who should be leading the fight to 
contain the coronavirus--The President of the United States.
    President Trump's record on the coronavirus is a stunning 
mix of incompetence, ignorance, and callous disregard for human 
life. He lied to Americans and told them the virus was a 
``Democratic hoax,'' and that it would ``magically disappear.'' 
At the same time, he privately admitted to Bob Woodward that 
the coronavirus was five times as deadly as serious strains of 
the flu--quote/unquote, ``deadly stuff.''
    The President should have used the early weeks of the 
crisis to test for and trace the virus, purchase PPE and 
ventilators, and to educate the public about the steps all 
Americans should take to protect themselves and others.
    However, it took more than seven weeks after the first 
confirmed case in the United States for him to declare a 
national emergency. If America had moved a week or two sooner 
to implement social distancing measures, it could have and 
would have saved tens of thousands of lives, according to 
research by Columbia University.
    The President ignored the advice of public health experts. 
He said that he knew more about public health than they did. He 
mocked people who wore masks. He refused to wear one, despite 
the fact that masks can play an important role in slowing the 
spread of the virus.
    He endangered people's lives by promoting the use of 
hydroxychloroquine, which has been shown by scientists to have 
no impact on treating COVID and carries substantial risks.
    He recommended injecting disinfectant to fight the virus, 
and sadly some Americans actually did. He claimed that children 
are, quote, ``almost immune.''
    In every case, the President was wrong--dead wrong.
    Public health officials argued that reopening prematurely 
would lead to a second wave of infections and deaths. But the 
President ignored them. He said in March that, quote, ``we 
cannot let the cure be worse than the problem itself.''
    He goaded governors to reopen the economy. He told 
Americans that public health measures were tyranny. He said to, 
quote, ``Liberate Michigan'' while supporters demonstrated--
with guns--at state capitals. And he held large political 
rallies defying experts who warned that these could become 
super-spreading events. And as a result of these reckless and 
callous actions, coronavirus cases spiked and people died.
    The number of new infections on Labor Day were double what 
they were on Memorial Day, 40,000 new cases per day.
    The President's insistence on prematurely reopening the 
economy had a self-serving purpose--to make the economy look 
stronger in the months leading to Election Day.
    As Washington Post columnist Catherine Rampell pointed out 
back in April, it was a big gamble--a gamble with American 
lives. A gamble with the U.S. economy. The gamble already has 
resulted in more cases and more deaths, but in the short term 
it made the economy look better.
    Between May and August, the economy regained about half of 
the jobs lost. The unemployment rate dropped from almost 15 
percent to 8.4 percent--still about 2.5 times higher than the 
February rate. And the President is betting that the next jobs 
numbers, when they are released next Friday, will continue to 
show marginal improvement. And that the cost of reopening too 
soon will not be obvious until after the election.
    While we do not know what the numbers will reveal, one 
thing is certain: The true impact of the President's gamble 
will not be evident until it is too late.
    Donald Trump holds the vast power of the U.S. Presidency--
but he has refused to use it. He has not contained the 
coronavirus, but has unleashed it. As a result, many more lives 
will be lost. And in the long term, the economy will suffer.
    The President's failure to make even the most meager effort 
to contain the coronavirus is his economic legacy.
    I look forward to the testimony of our witnesses, and I 
recognize the Chairman of the Full Committee, Senator Mike Lee, 
for his comments.
    [The prepared statement of Vice Chair Beyer appears in the 
Submissions for the Record on page 38.]

 OPENING STATEMENT OF HON. MIKE LEE, CHAIRMAN, A U.S. SENATOR 
                           FROM UTAH

    Chairman Lee. Thank you so much, Mr. Vice Chairman, for 
today's hearing on this really important topic.
    The novel coronavirus, as it has swept across the Nation 
and worked its way around the world this year, has left a 
veritable trail of devastation in its path. It has imposed not 
only serious physical disease, but it has also imposed severe 
economic ills as well. Jobs have been lost. Businesses have 
been shuttered. And entire sectors of industry have been 
disrupted.
    In response to these unprecedented issues brought on by 
this fairly unique crisis, we have taken unprecedented 
government action. But as in the successful treatment of any 
illness, we have to make sure that we are using the proper 
remedies, and that we first do no harm.
    So as we take stock of our current response to this 
pandemic, we need to consider how policy has both hurt and 
helped so far, and what we can do to improve. What might be the 
right solutions moving forward? Both for this public health 
crisis that we're dealing with right now, and for whatever 
might come next, whatever might fly in our path in the future.
    While some have called for still more aggressive Federal 
responses for more stimulus, a nationally coordinated response 
led by the Administration, and more widespread lockdowns, the 
benefits of policies like those have to be weighed against the 
cost that they impose on society, economically and otherwise.
    There are a whole host of possible unintended and, in many 
cases, unpleasant consequences. For instance, we know that 
large-scale stimulus can have a tendency to exacerbate our 
already whopping national debt, and can have a tendency to 
crowd out private investment.
    Officially, the enhanced unemployment benefits included in 
the CARES Act provided a disincentive for those who are 
unemployed to return to work, thus inhibiting economic 
recovery.
    In addition to economic devastations, lockdowns have had 
other negative effects by their very nature. Mandated isolation 
has either spurred, or in some cases worsened, mental health 
issues for a lot of people. And it has stopped countless others 
from getting routine health screenings and vaccinations, 
prohibited or discouraged others from maintaining their health 
in other ways, and in these respects it has, in and of itself, 
caused death or illness that might not otherwise have happened, 
that might otherwise have been prevented.
    In fact, as the second wave of the coronavirus has been 
rebounding across Europe, the continents' governments are now 
intent on avoiding any large-scale lockdowns and instead are 
focusing on more tailored, more localized measures to combat 
outbreaks as they happen based on the knowledge they have from 
day to day on how best to manage infections.
    Finally, we ought to make sure that the Federal policy, 
that any Federal policy adopted in Washington is certainly not 
inhibiting sound and effective solutions. Unfortunately, 
evidence shows that it already has, especially in the early 
days of this particular crisis.
    For instance, outdated Certificate of Need rules prevented 
hospitals from acquiring new beds and equipment. And the FDA 
and CDC rules against at-home testing posed an early barrier to 
disease control. But perhaps the worst failure of all was 
something that involved the sheer bureaucratic chaos that 
fatefully delayed effective testing for an entire month.
    Now thankfully we have already removed some of these 
barriers, some of these regulations that were stopping us from 
making the progress we otherwise needed to make. Two important 
changes have been allowing doctors to practice medicine across 
state lines, as well as allowing doctors to provide care 
through the use of telemedicine technology.
    This is exactly the kind of regulatory flexibility that we 
should consider moving forward so that we can quite quickly and 
freely administer to those whose needs require it, regardless 
of where the provider might be, and regardless of where the 
patient might be.
    As we continue to respond to the coronavirus, I think we 
need to acknowledge the ways that sweeping, centralized, one-
size-fits-all Federal policies can ultimately worsen our 
attempts at recovery, if we are to have flexibility and 
resiliency of the sort that we need in the face of this crisis 
and when faced with whatever might come our way in the future, 
we ought to really, instead, empower our states and localities, 
which best understand how their own resources, their own needs, 
and their own communities can be addressed and devoted.
    The American people have always played a critical role in 
governing locally, volunteering and innovating to respond 
especially in times of crisis.
    I look forward to hearing our panelists' contributions 
today as to how best we can continue doing just that. Thank 
you.
    [The prepared statement of Chairman Lee appears in the 
Submissions for the Record on page 39.]
    Vice Chairman Beyer. Mr. Chairman, thank you very much. I 
really appreciate it.
    Now I would like to introduce our four distinguished 
witnesses. First we have Dr. Ashish Jha, who is the Dean of the 
Brown University School of Public Health. And since I am the 
father of one Brown graduate, and about to have a Brown son-in-
law, it is wonderful to have you here. He is a recognized 
expert on pandemic preparedness, has been at the forefront of 
providing analysis of the COVID-19 response. Previously, Dr. 
Jha was a faculty member at the Harvard T.H. Chan School of 
Public Health at Harvard Medical School. He directed the 
Harvard Global Health Institute from 2014 to the fall of 2020. 
He is a practicing physician and earned his M.D. and M.P.H. 
degrees at Harvard; and has a B.A. in Economics from Columbia 
University.
    Next will be Dr. Austan Goolsbee, who is the Robert P. 
Gwinn Professor of Economics at the University of Chicago Booth 
School of Business. Dr. Goolsbee served as Chairman of the 
Council of Economic Advisers from 2010 to 2011; as the Chairman 
of the Council of Economic Affairs Advisers member from 2009 to 
2010. Since 2012 he has been a member of the Economic Advisory 
Panel to the Federal Reserve Bank of New York. In addition to 
his teaching and research, Dr. Goolsbee writes regularly on 
economic issues for national News outlets. He earned his Ph.D. 
in Economics from Massachusetts Institute of Technology, as 
well as an M.A. and B.A. in Economics from Yale University.
    Next we will have Dr. Jeffrey Singer, who is a Senior 
Fellow at the Cato Institute where he works in the Department 
of Health Policy Studies. A general surgeon with more than 35 
years of experience, Dr. Singer is the principal founder of the 
largest and oldest group private surgical practice in Arizona. 
In addition, he is a Visiting Fellow at the Goldwater 
Institute, and a member of the Board of Scientific Advisors of 
the American Council on Science and Health. Dr. Singer received 
his B.A. from Brooklyn College, CUNY, and his M.D. from New 
York Medical College.
    And finally, we will hear from Dr. Adam Michel, who is a 
Senior Policy Analyst at the Grover M. Hermann Center for the 
Federal Budget at the Heritage Foundation. His research focuses 
on how taxes impact the well-being and opportunity of 
Americans. Dr. Michel is published and quoted widely by 
national news outlets, and appears regularly on broadcast 
television to provide his perspective on taxes and economic 
issues. Previously, Dr. Michel was the Program Manager for the 
Spending and Budget Initiative at the Mercatus Center at George 
Mason University. He received his Ph.D. in Economics from 
George Mason University, and a B.A. in Politics from Whitman 
College.
    With that, I turn the floor over to Dr. Jha for your 
opening comments.
    Dr. Jha.

   STATEMENT OF DR. ASHISH K. JHA, M.D., M.P.H., DEAN, BROWN 
       UNIVERSITY SCHOOL OF PUBLIC HEALTH, PROVIDENCE, RI

    Dr. Jha. Great. Thank you, Chairman Lee and Vice Chairman 
Beyer, members of the Committee. As Vice Chairman Beyer said, 
my name is Ashish Jha. I am a practicing physician and a public 
health professor at Brown University, and it is my honor to be 
here today.
    Earlier today, the Hopkins COVID Dashboard reported that 
more than 200,000 Americans have died from COVID-19. This is a 
tragedy of immense magnitude. And we have to ask ourselves how 
did we get here? How did we become the world's epicenter, the 
nation with the most cases, the most suffering, the most 
deaths?
    When we take a look--when we take a step back and look at 
disease outbreaks, there are two major sets of strategies that 
any nation should pursue. Public health measures that control 
the virus and slow the spread; and biomedical measures that 
mitigate against the worst effects when people become infected.
    Fundamentally, we find ourselves where we are because we 
failed to effectively put in place public health measures that 
we know can control the virus. And it did not need to be this 
way. So let us talk about the three key public health measures 
that are so critical to controlling this virus:
    The first is testing, tracing, isolation. This strategy, 
where infected people are identified and isolated is an old and 
well-tried approach to disease outbreaks. Yet, in our Nation we 
failed to set up a testing infrastructure through much of 
January and February, having only rudimentary testing through 
March and April. Even now, we cannot perform nearly the number 
of tests our Nation needs.
    The result was that for much of the early months of the 
outbreak, our Nation was blind to the spread of the disease, 
finding ourselves in March with large outbreaks in several 
parts of the Nation. And because we had little testing 
capacity, we were forced into a painful national shutdown where 
good testing would have allowed us to be far more selective and 
measured.
    Which gets us to the second leg of the three-legged stool 
of virus control: social distancing. The most extreme version 
of which is lockdowns. When we locked down, we did so unevenly. 
And while the lockdown slowed the spread in some areas of the 
country, other regions remained largely open and the virus 
spread. And when we opened up the Nation more fully after 
Memorial Day, we did so with little regard to social 
distancing, causing large spikes and deaths over the summer.
    And finally, the third leg of the stool is wearing masks. 
By the end of March, the data on masks was pretty clear. And in 
early April, the CDC recommended widespread mask wearing. Yet, 
even today 17 states do not have a mandatory mask order, and 
mask wearing across our Nation is highly variable.
    The failure to effectively and fully implement these public 
health measures has meant that we have more cases and more 
deaths than any nation in the world. And the economic costs of 
failing to control the virus are large, as well. Large declines 
in economic activity and employment, and loss of business.
    So are these economic losses the costs of controlling the 
virus? Actually, quite the opposite. When we look across the 
world, we find that nations that did a better job of 
controlling the virus have largely suffered far less in the way 
of economic losses. And I want to highlight three nations.
    South Korea has largely relied on testing and tracing, 
building up an infrastructure early. And as a result, they have 
had fewer than 400 deaths. That is less than California had 
last week.
    Japan relied on contact tracing and mask wearing, and not 
as much on testing. And less than 1,500 Japanese have died.
    And Germany has had a mix of testing, and mask wearing, and 
clear communication about social distancing, and their death 
rate is 80 percent less than ours.
    So have these countries sacrificed their economies to 
control the virus? In fact, when you look at the countries with 
the smallest declines in GDP, they include Taiwan, another 
standout on virus control, and south Korea. And while Germany 
and Japan have suffered large economic declines, their 
unemployment rates are less than half of ours.
    Most high-income countries, not all, but most have managed 
to both save lives and jobs. We have struggled in both areas. 
Ultimately as we look ahead, we need to focus on a path that 
allows us to save lives and livelihoods.
    The best way to do that is to use a public health approach 
to restoring our economy. And while I have my own views on how 
best to do this, the very best guide today was published by 
this White House in April of this year. In a document entitled 
``Opening Up America Again,'' it laid out a clear public health 
approach, and a set of metrics and guidelines that our Nation 
unfortunately ignored.
    I believe we can and need to ensure we have a robust 
economic recovery, because that is what American people want, 
but not at the cost of losing their lives. Thankfully, all the 
evidence says that we do not have to choose. If we commit to 
controlling the virus, we can build the confidence and 
conditions necessary to helping America economically thrive 
again.
    Thank you, very much.
    [The prepared statement of Dr. Ashish K. Jha appears in the 
Submissions for the Record on page 41.]
    Vice Chairman Beyer. Dr. Jha, thank you very much. We 
greatly appreciate it.
    I would like to now introduce Dr. Austan Goolsbee for his 
five minutes.

STATEMENT OF DR. AUSTAN D. GOOLSBEE, ROBERT P. GWINN PROFESSOR, 
  UNIVERSITY OF CHICAGO, BOOTH SCHOOL OF BUSINESS, CHICAGO, IL

    Dr. Goolsbee. Thank you, Mr. Vice Chair, and Mr. Chairman. 
I applaud you for having this hearing. There is really, on the 
economic side, nothing more important.
    As I have only five minutes, I wanted to make three simple 
points, and some of which will overlap with what we just heard.
    As an introduction, I would remind you to a piece I wrote 
in my New York Times column on March 7th when there had only 
been a handful of deaths in the United States, and the 
contention from the White House had been that this disease and 
potential pandemic was locked down airtight and was not going 
to spread around the country. And I wrote this article saying, 
if we had a health outbreak in this country of the magnitude of 
what they had in China, given the structure of the U.S. economy 
and the structure of really all the rich countries' economies, 
the economic impact would be worse here than it even was in 
China, which was devastating. But it would be worse because we 
have so much more focus on service sector industries and face-
to-face interactions.
    And it was a warning, and it was my fervent hope that that 
warning never come to play. And, unfortunately, it did. And so 
the three points that I would make--maybe there are two-and-a-
half points--but the first point is:
    It is not a tradeoff between the economy and public health/
saving lives. You heard that from the distinguished doctor just 
previously, and I would just re-emphasize that on the economic 
side.
    What killed the economy, what put us into as fast a drop as 
has ever happened in this country economically, was not the 
imposition of policy lockdowns. That is not what killed the 
economy. The data is overwhelmingly clear that the economic 
drop began before the lockdowns were ever in place; that the 
drop in economic activity is very similar in places that had 
lockdowns and places that did not have lockdowns.
    The main thing that drove the economic decline is the same 
thing that always drives decline in a crisis, and that is when 
people are afraid, they withdraw. And in this case they were 
afraid of catching the disease, so they stayed home. The United 
States is particularly vulnerable on the health side, as you 
know, because of the factors that are correlated with the 
disease having a more negative impact. Obesity, previous heart 
conditions, diabetes, being over age 65, if you look at all of 
the groups at risk, by some estimates it adds up to a majority 
of the American people.
    So you can see why people would be afraid when they hear 
that a disease that has those features is spreading around; 
that there is not enough testing for them to be able to feel 
comfortable going out without catching it; that they are going 
to stay home.
    And you need only look at the airline industry, where there 
are no laws forbidding people from flying, but the demand for 
air travel plunged anyway, because people are themselves 
nervous.
    I have done some research that I will cite in the written 
testimony with another economist where we got access to the 
phone location records for visitors to 2.5 million businesses 
around the United states. And we compared across metropolitan 
areas in the same week where on one side of the border they had 
a lockdown order, and on the other side they did not. So an 
example would be the Quad Cities on the border of Iowa and 
Illinois where Moline, Illinois, had a shutdown order. If you 
look at Bettendorf, Iowa, they did not. The demand went down 
only about seven percent more in places with shutdown orders 
than not with shutdown orders.
    It was not the policy that did it. As I always say, the 
virus is the boss. If we cannot stop the spread of the virus, 
then we cannot bring the economy back to where we were even, 
much less grow at the rate that we needed to grown. It is not a 
tradeoff, and that is what is critical to see.
    My second point, and maybe it is just a half-point, is that 
the relief payments that the U.S. Government has provided to 
small business, to individuals, to the unemployed, to large 
businesses, et cetera, they are necessary to get us through 
this problem, but they are not sufficient to restart the 
economy.
    To restart the economy we have to stop the spread of the 
virus. So I believe that there is a perfectly valid debate to 
have about what forms of relief are most effective, and what 
are the best ways to enact those, but we are quite seriously in 
a position where we are burning money to prevent ourselves from 
freezing to death while the furnace is out.
    And it is necessary. You do not want to freeze to death. 
But we must remember that we have to get the furnace back 
running, and the only way to get the furnace running is to slow 
the rate of the spread of the virus.
    The third point I will make is that it is not too late. It 
is not too late to simply do what other rich countries around 
the world have done to both slow the rate of spread of the 
virus, and allow their economies to turn around more rapidly 
than the United States has.
    So they have taken different approaches, whether it is more 
testing, more mask wearing, public health measures, but even 
without a vaccine, without a vaccine to SARs, without a vaccine 
to MERS, for a long time there was no vaccine to Ebola, we 
still got control of the spread of those viruses by public 
health measures to stop the infection rate.
    If you take the work of Harry Holzer at Georgetown who 
published for Brookings, if the United States had simply 
addressed the virus with the same effectiveness as the average 
for other rich countries, we would have nine million more 
people at work, and we would have more than 100,000 fewer 
people dead from this virus.
    We must commit ourselves, I believe, to slowing the rate of 
spread of the virus in every way that we can. Otherwise, the 
economy will continue to suffer. It is not a choice to be made 
by a President, by a governor, by a mayor, it is a choice that 
is made by every consumer every day when they decide are they 
afraid to go outside. And I think we must keep that in mind.
    [The prepared statement of Dr. Austan D. Goolsbee appears 
in the Submissions for the Record on page 50.]
    Vice Chairman Beyer. Professor, thank you very much.
    We will now hear from Dr. Singer. The floor is yours.

  STATEMENT OF DR. JEFFREY A. SINGER, M.D., F.A.C.S., SENIOR 
             FELLOW, CATO INSTITUTE, WASHINGTON, DC

    Dr. Singer. Thank you, Mr. Vice Chairman and Mr. Chairman, 
and members of the Committee. I really appreciate being invited 
to testify.
    I will briefly summarize the key points in my written 
testimony.
    The Food and Drug Administration's test approval process 
caused an avoidable, harmful delay in getting test kits to the 
general public. The FDA should have authorized tests already in 
use in similar countries. Eventually, the FDA permitted states 
to independently approve tests for use within their own 
borders. When the public health crisis ends, FDA testing policy 
should not return to the status quo ante.
    S. 3769, the Right to Test Act, would grant authority to 
states to approve tests within their borders whenever the 
Secretary of Health and Human Services declares a public health 
emergency. Congress should consider granting states the 
authority to approve drugs and tests and other devices that may 
be marketed within their borders, even when there is not a 
public health emergency.
    Congress should also pass legislation granting reciprocal 
approval to drugs and medical devices in similar countries. 
Reciprocity already exists among the European Union states, 
plus Iceland, Lichtenstein, and Norway.
    S. 2161, which was introduced in July of 2019, also called 
The Result Act, would allow for the marketing of drugs approved 
in certain countries but not yet approved by the FDA, if, 
quote, ``there is an unmet need.'' Close quote. While this is 
indeed a step in the right direction, in the interests of 
promoting competition and consumer choice, reciprocal approval 
should not be contingent on an unmet need.
    In several states, governors suspended state licensing laws 
allowing practitioners licensed in any state to come to the aid 
of their residents. These emergency actions tacitly recognized 
a pressing problem: state clinician licensing was blocking 
access to care.
    In 2019, Arizona became the first of now several states to 
enact laws recognizing the out-of-state occupational and 
professional licenses of those who establish permanent 
locations within their jurisdictions. The remaining states, and 
the District of Columbia, should do the same.
    However, requiring health care practitioners to establish 
permanent in-state locations makes the reform less effective. 
States should remove this requirement. States should also grant 
reciprocity to health care practitioners licensed in certain 
other countries that have reputations for quality medical 
education and develop provisional license programs to integrate 
practitioners from less advanced countries into the pool of 
health care providers. Canada, Australia, New Zealand, and most 
EU countries offer provisional licenses.
    State licensing laws also impede the widespread use of 
telemedicine. Most states only let health care practitioners 
provide telemedicine to patients in states in which the 
providers are licensed. To the extent, consistent with its 
authority, to tear down barriers to interstate commerce under 
Article I of Section 8 of the Constitution, Congress should 
define the ``locus of care'' as the state in which the 
practitioner is located, as opposed to the state in which the 
consumer resides. While states have the Constitutional 
authority to regulate the practice of medicine for residents 
within their borders, crossing state lines to provide 
telemedicine or short-term care can reasonably be classified as 
interstate commerce.
    Where did you lose me?
    Vice Chairman Beyer. A few sentences back.
    Dr. Singer. Was I done talking about provisional licensing 
in
    Vice Chairman Beyer. Right there.
    Dr. Singer. Okay, state licensing laws also impede the 
widespread use of telemedicine. Most states only let health 
care practitioners provide telemedicine to patients in states 
in which the providers are licensed.
    To the extent, consistent with its authority to tear down 
barriers to interstate commerce under Article I, Section 8, of 
the Constitution, Congress should define the ``locus of care'' 
as the state in which the practitioner is located as opposed to 
the state in which the consumer of the service resides. While 
states have Constitutional authority to regulate the practice 
of medicine for residents within their borders, crossing state 
lines to provide telemedicine or short-term in-person care can 
reasonably be classified as commerce--as interstate commerce.
    S. 3993 introduced in the U.S. Senate on June 17, would 
define the ``locus of care'' as the state in which the 
practitioner is licensed, but would only apply to this pandemic 
and would be limited to telemedicine. This should not just be 
limited to telemedicine or to this pandemic. It should be 
permanent, and it should also apply to practitioners who 
provide short-term in-person care across state lines.
    State certificates of need laws like licensing laws are 
heavily influenced by incumbent providers and render state 
health systems unable to rapidly meet the changing demands of 
public health emergencies. The Joint Economic Committee and the 
relevant committees of the U.S. Senate and House of 
Representatives should investigate whether state certificate of 
need laws and state licensing laws constitute antitrust 
violations. Individual Members of Congress, or Congress as a 
whole, should direct the Federal Trade Commission to use its 
existing authority to enhance scrutiny of these state laws.
    And then finally, while the harmful effects of the pandemic 
occur in real time, the public health consequences of many 
policy tradeoffs may not be readily apparent but are 
nonetheless extremely damaging. And many economic tradeoffs of 
pandemic policy factor into the social determinants of health.
    Policymakers should be sensitive to both the seen and the 
unseen consequences of pandemic policy. The disparity between 
what is seen and what is not seen incentivizes government 
officials to be overly cautious and impose more restrictions 
for longer lengths of time than what might really be necessary.
    On all levels of government, one-size-fits-all measures 
should be kept to a minimum, and civil society should be 
informed, guided, and entrusted to work out suitable solutions 
using local knowledge.
    Thank you, once again.
    [The prepared statement of Dr. Jeffrey A. Singer appears in 
the Submissions for the Record on page 52.]
    Vice Chairman Beyer. Dr. Singer. Thank you very much. And 
now, finally, Dr. Adam Michel.

STATEMENT OF DR. ADAM MICHEL, SENIOR POLICY ANALYST, GROVER M. 
HERMANN CENTER FOR THE FEDERAL BUDGET, THE HERITAGE FOUNDATION, 
                         WASHINGTON, DC

    Dr. Michel. Vice Chair Beyer, Chairman Lee, thank you for 
the opportunity to be here today.
    Now it has been almost seven months into this crisis, and I 
do not think anyone has lost sight of the devastating cost to 
our health and our livelihoods from the coronavirus. What we 
can lose sight of is the Federal fiscal response has been 
equally unprecedented.
    I am going to begin with a brief overview of the current 
landscape, highlight the inability of Congress to stimulate an 
economic recovery with more spending, and then briefly outline 
three areas where Congress can help facilitate recovery.
    To date, Congress has authorized $4 trillion in aid, and 
the Federal Reserve has made another $7 trillion available. Due 
to the significant Federal transfers, disposable personal 
income and personal savings have actually increased during the 
height of the crisis, and have remained elevated.
    These temporary programs represent a powerful one-time 
action, but they are not a sustainable solution, especially if 
the path of the virus over the next year or more remains highly 
uncertain.
    The trillions in new programs that have already been 
authorized will also have future costs. They will discourage 
work. They will keep businesses from retooling for the new 
normal. And they will add to public debt which will lead to 
future tax increases.
    The Federal Government cannot keep the U.S. economy on life 
support forever. Americans must be allowed to return to work, 
return to their communities, and return to their schools.
    Since February's peak, we have recovered about half of the 
jobs we lost in the Spring. Other economic indicators are also 
trending in a positive direction. Given this swift turnaround, 
I want to caution you that this is not proof that the trillions 
of dollars spent over the past several months are responsible 
for the good news.
    Historical evidence makes it clear that stimulus spending 
is not an effective way to revive failing economies, and early 
estimates of things like the paycheck protection program put 
the cost of each job saved as just shy of $300,000. Ultimately, 
governments are not able to tax and spend their way back to 
economic prosperity. Instead, the quicker-than-expected rebound 
has been driven by Americans ready to re-engage in their 
communities and return to work.
    The recovery will continue to follow people's willingness 
and ability to return to work, return to school, and return to 
their communities. So what can be done?
    First, states should allow businesses and schools to 
reopen, with safety measures in place. Congress can help 
facilitate this reopening by protecting workers and protecting 
employers with liability measures to shield from frivolous 
lawsuits.
    Second, Congress can increase access to business capital so 
that those who do reopen existing businesses can expand, and 
entrepreneurs who take on risks of bringing new ideas to market 
to fill new needs in the crisis economy will be able to scale 
up. Things like full expensing and streamlined rules around 
raising funds can go a long way toward facilitating a quick 
recovery.
    Lastly, Congress can increase worker flexibility. With 
limited jobs available, people need options. And with kids at 
home, and other constraints, people need additional 
flexibility. Last year, 76 percent of people said they would 
consider freelancing if we were in a recession. Congress could 
make finding these type of flexible work arrangements easier by 
streamlining the multiple definitions of what an ``employee'' 
is, and providing safe harbors for non-wage benefits for 
freelance workers. Traditional workplaces can also be made more 
flexible by rolling back recent increases to overtime 
thresholds, and creating things like universal savings accounts 
so that all Americans can save more of their earnings 
regardless of their employment status.
    Additional large-scale Federal aid threatens to derail the 
recovery. New stimulus checks, temporary payroll tax holidays, 
and more Federal spending to inflate state budgets, or new 
infrastructure spending, are all misguided attempts to support 
the economy.
    Additional stimulus spending will simply worsen America's 
budget imbalances without the benefits of a promised economic 
boost.
    Thank you, and I look forward to your questions.
    [The prepared statement of Dr. Adam Michel appears in the 
Submissions for the Record on page 59.]
    Vice Chairman Beyer. Dr. Michel, thank you very much. We 
have finished with the presentations of our experts and we will 
begin a round of questions. As the Acting Vice Chair today, I 
get to start.
    So let me begin. Dr. Goolsbee, I am fascinated by your 
research that shows that the cause of the downturn was not 
lockdowns, but people with money choosing not to spend on 
personal services outside the home.
    What does that tell us about prospects for boosting 
consumption with the virus still raging across the country, 
with 40,000 new confirmed cases a day?
    Dr. Goolsbee. Yeah, it does not bode well. This finding 
that we had has also been shown in other data. Ours, as I said, 
was based on phone records and where people physically visited 
stores. There have been others who got credit card records of 
what people spend money on.
    And the thing we highlight in the paper that I would call 
your attention to is, the prevalence of the disease in your 
local area, in your county, matters a lot for whether people go 
out to visit stores, go to the barber shop, et cetera. And if 
you do something that increases the infection rate, you can 
easily undo even the economic potential that you are hoping to 
accomplish by say easing the lockdowns.
    So we show in the paper that in those places where they get 
rid of their lockdown orders, you see only a modest improvement 
to their economies of a little less than 7 percent, because the 
lockdown was not the thing that was killing it. And if 
repealing that lockdown lets the virus go up more, it can 
easily, over the medium and long run, do more economic damage 
than you did improvement by getting rid of the orders.
    Vice Chairman Beyer. You were Chairman of the Council of 
Economic Advisers. Dr. Michel was just talking about how 
stimulus has no impact. Do you think things like the 
unemployment insurance bump, and the paycheck protection were 
intended as stimulus? Or simply to allow people to survive, and 
businesses to survive?
    Dr. Goolsbee. Well I think that is an important 
distinction. Look, we can argue--and I do not agree with the 
evidence that stimulus is always and everywhere ineffective. I 
think there are many examples where the impact of stimulus can 
be positive.
    In this case, these were relief and rescue payments. These 
are not traditional stimulus of the form, let us spend this 
money to try to jump-start the economy. This is literally so 
that people do not lose their homes, so that businesses do not 
permanently have to liquidate while waiting out this temporary 
storm.
    Vice Chairman Beyer. Thank you very much.
    Dr. Jha, you laid out in your testimony a lot of what was 
mishandled in the U.S. response to COVID. I was fascinated by 
your comparisons with South Korea, Japan, Taiwan, Australia, 
and Germany. The costs have been enormous. If we had had the 
kind of response that Germany has had, for example, any idea 
how many American lives could have been saved?
    Dr. Jha. Yes, Congressman. You know, it is interesting. 
Germany is interesting because it is not some small, tiny 
northern European country. It has a population of 80 million. 
It is a pretty federal government where states have a lot of 
say. So in many ways it reflects the structure of our Nation. 
And their mortality rate has been about 80 percent lower than 
ours.
    And so if you just simply do the math, if our population 
was the same as Germany, we would have had about 40,000 deaths, 
not 200,000, or 160,000 fewer Americans would have died if we 
had the same death rate that Germany has had.
    Vice Chairman Beyer. Thank you very much. In the last 
couple of days we have seen people say we may be wearing masks 
through all of 2021, and with this airborne that the masks may 
be more effective, at least in the short run, than the vaccine.
    How do we--how does an American leader encourage people to 
wear masks, to get over this notion that masks are some kind of 
assault on our rights as an American?
    Dr. Jha. What I always hear them bring up is that viruses 
create a lot of assaults on our freedoms. And the question is: 
which assaults do you care about? I have three children. I want 
them back in school. Their inability to get back to school is 
an assault on their freedom and ours. The inability of people 
to get back to work is an assault on their freedom.
    So if everybody wore masks, and we did some of the other 
public health--let's just focus on masks. If we had universal 
mask wearing, we would have a lot more kids back in school. We 
would have a lot more people back at work. Those are real 
freedoms that would come from basic public health measures.
    We have never, in a public health crisis, said individual 
freedom is paramount. In public health crises, like in times of 
war, we have said that there are national and social 
responsibilities that are just as important as individual 
decisionmaking.
    I do think that there are real tradeoffs here, and they 
cannot just be about whether you want to wear a mask or not. It 
is about what kind of society do we want to live in.
    Vice Chairman Beyer. Thank you, Dr. Jha, very much. My time 
is up. I would like to recognize the Full Chairman of the 
Committee, Senator Lee.
    Chairman Lee. Thank you so much, Vice Chair Beyer.
    Dr. Singer, I would like to start with you if we can. In 
your testimony, you highlight the importance of considering 
other negative health impacts of the pandemic--meaning other 
health implications, including things like increased mental 
health problems, delayed vaccinations for children, and 
decreased access to routine care.
    Can you suggest ideas or strategies to ensure that these 
important kinds of health care are not neglected?
    Dr. Singer. Yes, first I would like to say I concur with 
Dr. Goolsbee, and in fact a lot of evidence has shown that 
regardless of whether there is a one-size-fits-all lockdown 
that is imposed, people are not going to engage in economic 
activity until they feel unafraid. Even in the early days of 
this pandemic, I think it was in early March, Open Table, for 
example, was reporting a tremendous drop off in people making 
reservations at restaurants.
    So some of the tradeoffs actually are not a direct result 
of government policy; they are the result of people on their 
own making decisions out of fear. For example, I am a surgeon 
and we had a blanket moratorium on all nonemergency surgery. It 
was called elective surgery. A lot of people mistake 
``elective'' for being unnecessary, but it is necessary. It is 
just that you can schedule it.
    And we were seeing people show up in the emergency rooms 
with very advanced cases of surgical emergencies that, the 
reason they were advanced is because the people let them go. 
People were coming in with appendicitis that had ruptured days 
ago because they were afraid of catching COVID if they went to 
the emergency room.
    And then of course there are people who already, for 
example, with substance use disorder, and a large part of 
treatment for substance use disorder involves connection. And 
when you are isolated to the home, not only are you cut off 
from your rehab program, but you are also cut off from 
connection to people. And this tends to make people relapse, 
the people who are depressed have an increased suicide rate, 
and we are seeing people neglect their health in general 
because they are afraid to come to the doctor's office for 
maintenance visits dealing with maintaining their medications 
that have to do with their heart, or their lungs, or blood 
pressure.
    Chairman Lee. Thank you. A related question I wanted to ask 
you, Dr. Singer, when we talk about disparities between the 
United States and other countries that we would consider to be 
our peer nations, are there explanations for that other than 
just people are getting sick at a higher rate here?
    In other words, are there differences between the testing 
protocols adopted by the United States and testing protocols 
adopted by some of our peer nations?
    Dr. Singer. Well, there are so many multiple factors at 
play, so it is really hard to make an apples to apples 
comparison. But in many cases, many of the other nations got 
their testing going much more quickly. In Germany, they were 
doing testing in late January, with a private-sector developed 
test. And we all know about Korea's success. Korea's success 
was built upon their experience with the MERS outbreak back in 
2015 where they learned that they need to allow the private 
sector to get out there with tests right away. So they revised 
their process, that unfortunately we have here in the United 
States, which slowed down the wheels of progress. So they 
basically had it set up that private labs can get busy getting 
tests out, and just keep their version of the FDA in the loop 
and informed as things were going forward.
    In our case, the FDA basically gave, for all intents and 
purposes, a monopoly to the CDC to develop a test, and then 
when the test turned out to be defective in late February, it 
began playing catchup.
    So a lot of it I think has to do with our regulatory 
system. Sad to say, we are supposed to be the beacon of free 
markets and limited government, but a lot of the other 
countries that do not have the reputation that we have, seemed 
to be much more flexible, and had actually decreased 
regulation. And they were able to respond more quickly. I think 
that had a lot to do with it.
    Chairman Lee. That makes sense. I have another question for 
Dr. Michel, and for you again, Dr. Singer. A recent Wall Street 
Journal article noted that, despite cases in Europe rising, 
there are a lot of leaders who are now rejecting lockdowns. One 
physician who coordinates an EU scientific advisory panel 
observed that the scientific evidence that led to lockdowns 
failed to consider the broader social and economic 
repercussions.
    He is now advising policymakers to ask people to, quote, 
``take personal responsibility to curb the disease by adhering 
to social distancing, wearing masks, avoiding crowded spaces, 
and staying away from people at greater risk.'' Close quote. 
Rather than relying on government.
    So in your view, starting with you, Dr. Michel, would a 
national lockdown of the United States, starting in the spring, 
have been misguided and should policymakers and health experts 
update our messaging to emphasize personal responsibility?
    Dr. Michel. Yes. I think you are exactly right. The most 
economically costly public health measures are also those that 
are least effective at controlling the virus. Namely, lockdowns 
and stay-at-home orders. When you look across the country, 
across states, there is very little evidence to show that the 
legal restrictions on distancing and movement are what decrease 
the spread of the virus.
    So focusing on testing, focusing on isolating those who are 
sick, these are the things that we know work, and I think that 
should be where our public health response remains.
    Chairman Lee. Dr. Singer, would you respond to that?
    Dr. Singer. Yeah, I agree. All you have to do is look to 
what is going on in the rest of the world. All of the countries 
that had lockdowns are now experiencing surges in cases. So the 
lockdowns--the virus--everybody seems to think if you stay 
locked down long enough, this virus will get bored and go to 
some other planet. This virus is here. It is not going away. We 
have to learn to basically adopt harm-reduction measures, 
because this--even if we get a vaccine, we do not know how 
effective the vaccine is going to be.
    So we have--fortunately, now, eight months into this thing, 
we know a lot more about the virus. We know who we need to 
particularly protect. We know what kind of behaviors we should 
adopt that would decrease risk.
    And while I can understand the lockdowns early on when we 
knew very little, we know much more now. And I do not think 
there is any excuse for it. In addition, I think it is 
important--and I have written about this--that when these 
decisions are made, as decentralized and localized as possible 
based on local knowledge, then different areas based upon 
changes in circumstances, can adjust.
    When all the decisionmaking authority is placed in one 
person, then, no matter who that person is, there is going to 
be an incentive for that person to be overly cautious because 
the first thing you are going to see when regulations are 
relaxed is cases go up. And that is on that person. Whereas, 
what you do not see readily are the other long-term tradeoffs, 
and public health tradeoffs as well, from delaying the 
relaxation of those decisions.
    So again, these things, we should try to handle them as 
much as possible by having an informed public, with consistent 
information, being told what they need to do to make the 
adjustments at the local level.
    Chairman Lee. Dr. Singer, you have just made what I think 
is one of the best arguments I have ever heard for the American 
form of government. That is, for the twin structural 
protections of federalism and separation of powers.
    Our entire system of government was built around the idea 
that we do not want any one person, or one group of people, to 
accumulate excessive power. And it applies not only in spite 
of, but specifically in the midst of something like the COVID 
pandemic. You do not want to put all of your decisionmaking 
power at the national level, even where there are national 
decisions to be made. You do not necessarily want to focus that 
in one person. And you just pointed out some reasons grounded 
in medical science why that is the case. So I appreciate that 
perspective.
    Okay, my time has expired. We are going to turn next to 
Senator Klobuchar.
    [Pause.]
    Senator Klobuchar, are you there?
    Senator Klobuchar. Very good. I can. Thank you.
    Thank you all for this hearing, and I want to start out 
with you, Dr. Goolsbee. Thank you for your words about masks, 
and about tracking, and about being able to relate this 
pandemic--I think we all think of the pandemic, and we do not 
want to get sick, and many people have personally lost loved 
ones. My husband was in the hospital for a week, and came out 
of it. But I think sometimes we do not connect it with the 
economics, which is also an important thing for people to see.
    As we wait for a vaccine, we need the masks, we need the 
tracking, and it is about keeping us safe. But it is also about 
keeping our economy in a place where we can at some point go 
back to where it was.
    I guess my first question was how long do you estimate it 
would take to make up the economic productivity and growth that 
we have lost?
    Dr. Goolsbee. Well, that is a critical question, clearly, 
and the answer depends totally on whether we can get control of 
this virus. If we could get the reproduction rate, the R value, 
of the virus down to less than one, and the spread of it was 
simply at the rate that it has been in other rich countries, I 
actually think that in much of the economy the turnaround could 
be pretty rapid.
    There are still going to be some areas, like cruise ships, 
where until there is a vaccine it is kind of hard to see that 
sector going back to what it was before. But I think it could 
be turned around fairly quickly.
    Senator Klobuchar. So while we wait for the vaccine, we 
could be in a much better place economically if we had an 
Administration that was putting it in place.
    Dr. Goolsbee. And to highlight in other countries. We 
talked about Germany, Australia, New Zealand, places where they 
handled the disease better.
    If you look at how much their unemployment rates are 
higher, or have changed now compared with before the vaccine 
was there, the U.S. is by far an outlier. So our unemployment 
rate is more than double what it was when it arrived.
    If you look--I have the list here--in Germany, the 
unemployment rate is up only one percentage point. In Korea, it 
is actually down. In France and New Zealand, it is down. Even 
in Japan it is up a half a percent. In Italy, five percent.
    Senator Klobuchar. Yes. Those are not our numbers. One 
area, I just want to ask one more question here. You were 
mentioning certain areas of the economy. I think one of the 
things we know is that one size does not fit all. Tech for the 
most part is booming. And then you have the hospitality 
industry with restaurants and certain hotels, not all, but 
certain hotels very much hurt. And then you have venues. And 
this is a bill Senator Cornyn and I have to save our stages all 
over the country. You cannot exactly go stand in a mosh pit 
during a pandemic. They were some of the first to close and 
will be some of the last to open. And we now have 40 co-
sponsors in the Senate. The House has similar. Very bipartisan. 
It would help with grants to these venues. This includes places 
like First Avenue, where we would not have had Prince, but it 
also includes the Fargo Theater, and small and mid-sized towns.
    Oftentimes we will have one cultural venue that is so 
important. Could you explain why that is important for the 
economies that surround these venues?
    Dr. Goolsbee. Well, look, the economies that surround those 
venues very much rely on that. And that is one part that kind 
of leisure entertainment, travel, tourism, all of that space is 
particularly important in the U.S. economy. I saw a recent 
survey from this past week in Crain's Chicago Business that 
literally three-quarters of the independent music venues and 
theaters in the City of Chicago believe that they are going to 
have to close down permanently because of this.
    Senator Klobuchar. Exactly. Alright, well thank you for 
your work. Thank you.
    Chairman Lee. Representative Schweikert, you are up next. 
David Schweikert, are you there?
    [No response.]
    Chairman Lee. If not, it will be Representative Frankel.
    Representative Frankel. I am happily listening. I wanted to 
thank everybody for a very interesting discussion tonight, and 
I yield back.
    Chairman Lee. Great. Representative LaHood, you are next.
    [No response.]
    Chairman Lee. No response from LaHood?
    Senator Cotton.
    [No response.]
    Chairman Lee. Senator Cotton, if you are there, let us 
know. If not, we will go to Representative Herrera Beutler.
    Representative Herrera Beutler. Can you guys hear me?
    Chairman Lee. Here we go. Here we go.
    Representative Herrera Beutler. You guys have got it. Okay. 
Thank you. Sorry. I keep trying to change my name on this. I am 
not 997402996, but----
    Chairman Lee. It's a pretty name.
    [Laughter.]
    Representative Herrera Beutler. This has been really--I am 
standing up in the gallery in the middle of a two-year-long 
vote series to get two votes done. Meanwhile, everybody is 
wandering around exposing themselves more to COVID, so I think 
one of the things we've learned from this is there are things 
that work and there are things that are only for show, and what 
I am hearing is, and what I am interested in, I want to do 
those things and take those steps that work to protect people. 
But we also need to move past the things that are just for 
show, because the economic damage that we are--that is being 
wrought on the country, like you cannot just turn it back on.
    I keep hearing people say, well how soon can we start back 
up? Well, we are losing businesses in southwest Washington 
State. They are dying on the vine right now. They can't just 
start back up. That was someone's life savings, it's done. And 
so how do we limit that?
    And the same is true on the health care side. I have a few 
different questions. Dr. Singer, I got on when you were 
finishing your testimony, and you were highlighting the 
burdensome regulations that get in the way of health care, 
including the drug authorizations and state licensure 
requirements. Certificate of need. It was just a barrier to 
efficient, effective telemedicine in this crisis.
    Is there something--at least that is my opinion--CMS is now 
considering making a variety of telehealth waivers they issued 
under the Crisis Separation permanent. Is this something you 
agree with? Are there other regulatory burdens that can be 
removed during the rulemaking process?
    Dr. Singer. Well, Representative, the CMS plan is certainly 
a step in the right direction. But that only deals with 
basically paying providers who engage in telemedicine. But that 
is of course--and that only affects people who are on Medicare 
or Medicaid. But what makes that not really very effective is 
the state licensing law.
    So even as a provider, if I know that Medicare will pay me 
for providing health care to someone in my neighboring State of 
New Mexico, I am in Arizona, if I am not allowed to do it, it 
does not really make much--it does not help.
    So the problem is, just like certificate of need as you 
mentioned earlier, most of the state licensing laws and 
certificate of need laws tend to be heavily influenced by the 
incumbents, and keep out competition.
    And in fact, in the mid-1980s when Congress repealed the 
incentives it gave to states to establish certificate of need 
laws, it recognized that. And so there are still, 
unfortunately, about 38 states that still have them to one 
degree or another.
    That is why I offered the proposal of Congress actually 
passing a law--and I think it is within Congress' purview under 
Article I, Section 8, the authority to regulate commerce among 
the states--would be to define the ``locus of care'' as the 
state in which the practitioner is licensed, as opposed to 
which a state in which the recipient of the care happens to be 
residing. And that would kind of--that would make it work.
    As far as certificate of need laws are concerned, it is 
unfortunately a state issue and it is up to states to decide 
whether or not to repeal them. But I think--now I am not a 
Constitutional lawyer--I am not a lawyer--but my colleagues at 
the Cato Institute tell me that there is at least reason to 
look into whether or not certificate of need laws and state 
licensing laws might constitute a form of antitrust violation. 
And at least ask the Federal Trade Commission to look into 
that.
    Representative Herrera Beutler. That is interesting. I had 
not thought about that. I cannot see the clock. Do I have any 
time left? Somebody cut me off.
    Dr. Michel, in your testimony you think that there should 
be no additional stimulus payments to individuals, or we should 
phase out the--unfortunately, so many of my constituents have 
not received their check. I am in Washington State. I am right 
on the border, so people cross over into Oregon, which is 
another where ESB has been a bit of a mess.
    And so the stimulus checks were the only thing that people 
actually--some of these people actually got. And they are 
pretty dire situations. How would you suggest that we reform 
the unemployment insurance system, or somehow help the states 
do it, so that we do not end up in this problem again?
    Dr. Michel. Well, it is a fantastic question, and I think 
the strength of our system is that the unemployment system is 
handled at the state level, and is able to be tailored to the 
populations across the country.
    So I would not want to federalize the system, or to make it 
a system that if the Federal Government failed to get the 
checks out, no one got them. I think that having--it is 
unfortunate that certain states have really struggled, but 
other states have succeeded. And so I would hope that states 
learn from this crisis and are able to update and modernize 
their systems. I think it is, frankly, ridiculous that we were 
not able to provide a matched benefit that allows a scaled 
match of someone's pre-pandemic wages. Instead, we had to do a 
lump sum payment.
    That is a failure of state unemployment systems. And so I 
would point to state reforms, and states need to make sure 
those systems are robust. But to put a fine point on the fact 
that we cannot always rely on government for everything that we 
need, things like universal savings accounts could help people 
save for their own rainy day funds, to help people build their 
own savings rather than always waiting for the government 
systems that tend to not work when we need them most.
    Representative Herrera Beutler. Thank you. I am sure I am 
out of time. Yield back.
    Chairman Lee. Representative Schweikert, you are up next.
    We cannot hear you, David. Are you on mute?
    There we go. There we go.
    Representative Schweikert. We were having some technology 
problems. And let me disclose, Dr. Singer has been a friend for 
decades and decades, and I sort of consider him my advisor on 
some weird technical issues.
    But, Dr. Singer, and also Mr. Goolsbee, because you also 
touched on this when you were speaking, if I came to you and 
said, ``We are part of the Joint Economic Committee and we want 
to have an understanding of the entire societal cost, just in 
the United States, but the societal cost of the pandemic--the 
cost to my soon-to-be-5-year-old daughter who may have lost 
several months of education, the loss to society I'm hearing of 
a young high school student who took her life in a heart-
breaking fashion in my community, all the way down to lost 
wages.'' Is there anyone out there--and, Dr. Singer, I will ask 
you first--who you believe is building a model both to help us 
understand our entire societal cost, and therefore helping us 
do sort of decision theory? Here is the cost directly related. 
Here is the second degree, third degree, type of cascade costs, 
as a good economic model would produce. It is something we are 
going to need to know as we do the post-mortem on this 
pandemic.
    Dr. Singer. Well, Congressman Schweikert, I am not an 
economist, and I am not sure anybody could really accurately 
answer that question because there are so many things that we 
do not see and are not aware of. So much is subjective.
    I imagine there are some economists trying to come up with 
models that would at least give an inkling of it, but I am not 
familiar with those models.
    Representative Schweikert. Alright, thank you, Jeff.
    Dr. Goolsbee.
    Dr. Goolsbee. I would like to say that it is a fascinating 
kind of intellectual exercise that motivates our policy 
discussion. I do not think anybody has truly tried to put the 
whole burrito together in that way. They have been----
    Representative Schweikert. You had to talk about a burrito 
when I have missed lunch [laughing].
    Dr. Goolsbee. I apologize. There has been a lot of work 
trying to isolate individual components. So if you think of my 
own work, and the work that I cited, that is about how you 
identify just what is the impact of lockdown orders. That that 
was about 7 percent on economic activity in those industries.
    The broader impacts on education, on mental wellness, and 
the things that you mentioned, it is probably going to be some 
time before we look back and are able to recognize that.
    Representative Schweikert. A couple of the economists from 
Joint Economics I work with were trying to think this through. 
If any of you, our witnesses, come across a paper, think of me. 
Send it to us. Because it would help us build a decision-making 
model for the future, for ourselves and hopefully for the 
world.
    Dr. Goolsbee, as long as I have you, if I came to you and 
said, ``We are not going to talk about the past. We are not 
going to talk about decisions made a week ago or three months 
ago.'' But as of today, if you walked into my office and said, 
``Here are policies I want you to adopt to maximize economic 
expansion''--and, Adam, I am going to ask you the same one--
what would you do today that helps keep our communities, our 
society, as healthy as we can, but also creates as much 
economic velocity. Because you see our debt picture. What would 
you do today?
    Dr. Goolsbee. Look, this is a critical area. I actually 
would put the focus, number one, on the public health measures, 
which are not normal for economists. Normally economists would 
propose economic policies, but I think most of the economists 
are proposing public health policies like getting more masks 
wearing, getting more mask wearing, more testing and tracing, 
so that rather than having everyone shut down, we could just 
pull out of the economy those people that are contagious.
    Those would be critical. If you could wave a magic wand and 
have a vaccine by Monday, much--not all of the economy could go 
right back to doing what it was doing before the pandemic 
began. And so that makes this recession very different from any 
previous recession.
    So I would put the focus on that public health stuff.
    Representative Schweikert. That is sort of very 
Shilleresque, if we can say, attitudinal.
    Adam, what would you do? If I came to you right now today 
and said, ``I need policy that we would do today,'' what would 
you do?
    Dr. Michel. I agree with Dr. Goolsbee that we have to get 
testing, and we have to get isolation of people that are sick 
right, before people feel confident in returning to their pre-
crisis activities. People have to feel willing to go out and 
spend their money, and go to work, in order for anything else 
to matter. But then it is about getting all of the other things 
we know allow businesses and people to thrive right.
    It is making sure taxes stay low. It is about fixing our 
debt trajectory so that taxes do not have to increase in the 
future. It is making sure entrepreneurs can access the capital 
that they need. It is sort of the whole host of pro-growth 
policies that will then allow, once we get testing and tracing 
right, to allow the economy to accelerate back to where it was.
    Representative Schweikert. Alright. Mr. Chairman, thank you 
for your patience, and thank you for your patience with my 
technology.
    Chairman Lee. Oh, you bet. You bet. You are one of the more 
tech savvy members of the House or Senate I know, so it is good 
to have you here.
    Representative Beatty, you are next.
    Representative Beatty. Okay, I think I am unmuted now. 
Sorry, I had some difficulties getting on, as well, here in the 
Capitol, but thank you. And thank you to our witnesses.
    The first question I have is for you, Dr. Goolsbee. Back in 
March of this year you said that the number one rule of virus 
economics is that you have to stop the virus, of course, before 
we can do anything. But despite all these warnings, this 
Administration has refused to take, in my opinion, the virus 
seriously enough to combat it.
    Also in January the President said that we have it under 
control. Then in February we had maybe about 15 cases, and he 
said that it would go away, or one day it maybe will magically 
go away.
    Can you tell us, when you look at other countries like 
Korea, like Germany, who chose to attack the virus early on 
head on, can you compare the long-term economic effect of 
choosing to prioritize health, like these other countries did, 
with the United States patchwork response led to our state 
having more death cases?
    How did that--or is that continuing to affect the economy?
    Dr. Goolsbee. Yes, Representative, I think it did affect 
the economy, and it is continuing to affect the economy. As I 
mentioned when discussing it with Senator Klobuchar, if you 
look at the employment performance in the countries where they 
made a clear national strategy and prioritization to stop the 
spread of the disease, their job market destruction has been 
far less than what has happened in the United States.
    In several of these countries, their unemployment rate 
actually went down over the course of this, rather than more 
than doubling like it did in the United States.
    And then I would just highlight the second component, which 
is hundreds of thousands of people have died in this country 
that did not need to die had we done this prioritization. I do 
not understand a national strategy that is, at best, of mixed 
motivation. And by that, I say sometimes the Federal 
Government's response has been good, and then sometimes it 
comes with a playback, kind of a soundtrack that goes against 
the stated response.
    So making fun of people for wearing masks, saying we should 
liberate the country when they are trying to restrict access to 
restaurants and bars and places where the spread of the disease 
has been documented to be high. Those are things that go 
against other statements that you should take the disease 
seriously.
    And I think the numbers really speak for themselves, and in 
fact I think neither the economy nor the public health 
consequences of those decisions, I think they are pretty 
serious and pretty negative.
    Representative Beatty. Well let me just applaud you and say 
thank you, because as an economist you are saying the exact 
same thing that our experts who are in the science area and 
health care, many of them who are also participating with the 
Administration have told us the value of this. So I cannot 
thank you enough for that.
    To the second witness, let me ask you if you aware of this. 
We recently heard that the White House had scrapped the plans 
for the United States Postal Service to send approximately $650 
million worth of masks to Americans through the mail, and then 
that got scrapped. So I think that is just another instance.
    But do you think that it would have made a difference, 
let's say, if we would have sent every citizen five masks, so 
they could have had them. Would that have had--what kind of 
health and economic impact do you think, if any, that would 
have made if every citizen would have been given one, as I 
understand the original plan was?
    Dr. Jha. Congresswoman, thank you for that question. There 
is no doubt about it in my mind that getting more people to 
wear masks would have made a very big difference. If it had 
come from the government, if it had come from the Federal 
Government, there is some skepticism in some quarters. I think 
it would have helped that skepticism if it came from the 
President, or came from the White House's seal of approval. But 
most importantly, it would have made it easier for people to 
wear masks. And I think that would have made an enormous 
difference.
    So I am sorry that that was scrapped. It would have led to 
fewer cases, fewer deaths, and I believe great economic 
rebound. The fundamental point here is, we have got to get the 
virus under control. And if we do that, our economy can recover 
and masks would have been a really helpful part of that.
    Representative Beatty. I posed--I left the Financial 
Services Committee just an hour or so ago, and I posed that 
same question to Secretary Mnuchin, because he had gotten 
involved with the Postal Service. He said he was not aware of 
it being scrapped. But at least he did say he would look into 
it, because I do not think it is too late. You know, a month 
ago we were throwing out numbers like 150,000, and now we are 
over 200,000. So this is going to be our new normal, if we are 
going to save lives.
    So I yield back, but thank both of you for the information, 
your honesty, and at least giving us hope. Thank you.
    Vice Chairman Beyer. Congresswoman Beatty, thank you very 
much.
    I would now like to recognize Senator Cassidy for his 
questions.
    Senator Cassidy. Yes. Hang on. Got me?
    Vice Chairman Beyer. Got you.
    Senator Cassidy. Thank you all.
    Dr. Goolsbee, I am struck because when people have asked 
you about reopening the economy, it is always don't ask me, ask 
somebody's mother, because mothers rule the world. Until they 
are comfortable, they are not going to go to a vacation to New 
Orleans and spend the night in a hotel. And so I am glad that 
your research actually kind of coincides with the intuition I 
have had my whole life. Mothers rule the world.
    So it does seem like we have to get that down. Dr. Jha, 
there has been some discussion as to the benefits of a Federal 
response as opposed to a regional one, and full disclosure you 
and I have collaborated on something in which a regional 
response, collaborative if you will, between states would be 
the operative way of doing it.
    Would you like to comment on the relative advantage of a 
regional response versus a Federal?
    Dr. Jha. Absolutely, Senator. And thank you for that 
question. So a couple of things.
    First of all, I think we all understand and agree that the 
virus spread at any given moment is regional. What New York is 
experiencing today is different than what California is 
experiencing today. The long history and the tradition of 
public health in America has always been one where states lead, 
and the Federal Government is standing next to the state 
helping, providing guidance, providing resources. So I have 
always believed that states have a fundamentally important role 
in this process.
    The problem here of course is that we have a global 
pandemic. And so, for instance, things like testing, we think 
about PCR testing, the testing we have been mostly focused on 
the last six months, these have national and global supply 
chains. So a strong Federal help and engagement is incredibly 
helpful.
    But I have certainly agreed on the thing we have 
collaborated on, Senator, that having groups of states come 
together is an alternative approach that can add, I think, 
increase the right market conditions, can set the right 
signals. I still think it would be very helpful to have a more 
engaged and more effective Federal response helping the states, 
but I have always believed that states have an important role. 
They just, in many issues, cannot do it by themselves. But a 
group of states coming together is an alternative----
    Senator Cassidy. Let me ask you about that. One example 
that we have used continuously at the Broad Institute, and the 
Broad Institute was able to take existing resources and stand 
up using a kind of plug-and-play type approach. Now all those 
resources were available, and when Debra Burks came down to 
Baton Rouge, and she would speak to that: listen, Thermo Fisher 
supply is out there, and we can just use that instead of being 
in these proprietary systems.
    So it did seem as if she had a point, that there was a lot 
of under-utilized capacity that could be employed within each 
state prior to a Federal Government sort of trying to ``this is 
how you do it.'' Indeed, you could argue that a state would 
have a better sense of where you should be intervening than 
somebody in Washington, D.C.
    And so I asked that not to challenge but to explore.
    Dr. Jha. So there are two parts to that, Senator. I 
completely agree that states do have a good sense of where 
their additional capacity is.
    One issue is resources. A lot of states are feeling like 
they cannot pay for things. If you look at the Broad, for 
instance, which is doing a great job, their tests are being 
paid for by private organizations. And so private universities, 
Harvard, Brown, others are paying for testing there. The public 
schools and the public universities are not. And so what it 
does is it does bring capacity in when you have private 
purchasers. But what we do is we create a very large divide 
between who is able to access that and not.
    Second, it is unusual. It is not clear that every state can 
replicate a Broad. So I think part of the role of the Federal 
Government is to create a certain evenness so not just a few 
small states can do a fabulous job, but indeed a lot of other 
states that do not have that kind of capacity can also come on.
    Senator Cassidy. No, I would argue that the CARES packages, 
which put out, you know, in my state they got $180 million for 
testing, attempted to do that. But with that said, clearly we 
still need more testing, so I will not argue with that.
    Dr. Goolsbee, you may have addressed this partly in the 
past, but I have been very concerned about the opportunity 
cost. Children are extremely low risk of having complications 
from COVID infections, and yet they are paying an incredibly 
high price. Even the worldwide evidence shows they can safely 
go back to school. And as best we can tell, there is no 
documented case of a child transmitting coronavirus to their 
teacher or the staff, particularly for primary school, but 
apparently for secondary as well.
    Any comments on the opportunity cost of locking down 
elementary schools, which does not seem to benefit the public 
health but cost them tremendously?
    Dr. Goolsbee. Well, I do think that we need to think about 
those opportunity costs. And I do think that the not being able 
to open the schools has critical costs to the economy. I would 
rather see the schools open than the bars open. No offense to 
New Orleans. But I do think that is more important.
    Senator Cassidy. Then can I ask you--because I have been 
particularly concerned that lower-income families, with the 
digital divide, and a parent that perhaps has to work, and less 
familiarity with computers, is at a particular risk. And I do 
think there is evidence, empiric evidence that the children 
from lower-income families, even when given access to the 
internet, are less likely to use it. Those at academic risk are 
at increased risk, or increased risk in a virtual environment.
    Any thoughts on that?
    Dr. Goolsbee. I do basically agree with that. For a time, I 
was on the Board of Education for the City of Chicago, and I 
know that these issues of the digital divide make that shifting 
education to an online sphere, there is a risk that it is going 
to hit low-income people harder than high-income people, the 
same way that it has hit low-income occupations harder than 
high-income occupations.
    The only thing I do not know, and the doctors on our panel 
would have a better sense, my read of the evidence is that 
definitely teachers can catch the disease. So you have got to 
think about how the teachers----
    Senator Cassidy. If I may, because I am about out of time, 
I think the best evidence is that they are catching it in the 
community, not from the school.
    Dr. Goolsbee. And the kids can get sick. They have low 
mortality, but they--in China, for example, they did get very 
sick.
    Senator Cassidy. I guess my point was, in closing, that the 
opportunity cost of a 5- and 6-year-old kid from a lower-income 
family is much greater than the extremely rare severe 
complication from COVID in a 5- or 6-year-old. I think there is 
a lot of evidence to that.
    I am out of time, but if Dr. Jha would be--and by the way, 
Dr. Singer, you are a great friend so I want to give you a 
shout-out. Sorry I did not focus my questions on you. But I 
yield back just because I am out of time. Thank you.
    Vice Chairman Beyer. Thank you, Senator, very much.
    I will now start a second round, and I will start. Dr. Jha, 
four recent examples. Yesterday the CDC took down guidance it 
had just put up stating that the coronavirus could be spread 
through small particles, such as in aerosols. And in the 
updated guidance, there is no reference to airborne 
transmission.
    And then last week they changed their testing guidance for 
people without symptoms who had contact with an infected 
person. And then we had the whole Caputo thing at HHS where he 
talked about the deep-state scientists, and scientists and 
sedition.
    And then yesterday, Secretary Azar decided to take over all 
the agencies within HHS, including the FDA.
    Are you at all worried about the public distrust that comes 
from all this changing guidance--the sense of political 
manipulation probably by the White House?
    Dr. Jha. Congressman, thank you for that question. You 
know, there are two parts of the distrust that I worry about 
immensely. The first is among doctors and nurses. We have a 
long tradition of shorthanding a CDC or an FDA recommendation 
as another way of saying this is the gold standard.
    So when we say, for instance, oh, the FDA recommends this, 
you do not have to explain what you mean, usually all you mean 
is this is where the best scientific evidence is. That has been 
a truism under Republican administrations, under Democratic 
administrations. We have never worried about the scientific 
credibility coming out of the CDC or the FDA.
    That has changed in the last six months. And that worries 
me immensely, because the great scientists of the FDA and the 
CDC are still there. Thankfully, they have not left. They are 
still doing great work. And unfortunately what comes out 
increasingly from both of these agencies, and certainly the CDC 
as you laid out, Congressman, is increasingly muddled, 
contradictory, and against all the scientific evidence we know.
    And so either these brilliant scientists have all of a 
sudden stopped--you know, no longer know how to do science; I 
doubt it. Or, something is muddling their ability to project 
and explain to the American people what the fundamental issues 
are around this virus. The issue about airborne is one of them. 
There have been others, around testing. It is deeply 
distressing, and I think it leaves American people unmoored 
because they no longer know where to turn, where to trust.
    And it will take us a very long time to restore the trust 
in these agencies. We have got to stop doing that. We have got 
to let the scientists of these agencies speak directly to the 
American people. We pay their salaries through taxes. We 
deserve to hear from them.
    Vice Chairman Beyer. On the same issue of trust, the White 
House Chief of Staff recently said the White House is aiming at 
100 million doses of the coronavirus vaccine ready by the end 
of October, which is now five weeks away. Is that safe, or even 
realistic?
    Dr. Jha. Well, so Operation Warp Speed, which has been a 
program run by the White House that I have been enormously 
supportive of, I think it in general has done a very good job 
of ramping up production, has done so at risk, meaning without 
even knowing whether the vaccines are safe or effective, has 
produced these vaccines. And I think that has been the right 
thing to do. Because once we have clear evidence of safety and 
efficacy, we will not want to wait, you know--we would want to 
wait as little as possible. So in general I think that is a 
good thing: 100 million by the end of October is a much, much 
higher number than I have heard.
    I do not believe anybody knows when we will have, or ought 
to know when we will have clear data on safety and 
effectiveness. My best projection is that it will come in 
sometime in November. And my best projection has been that we 
will have tens of millions of doses by the end of this year. So 
that number is really high, and out of what I have generally 
heard from most people in the industry.
    Vice Chairman Beyer. I want to thank you for making me feel 
better about paying that Brown tuition, and for all the 
research that you are able to do.
    To pick up on something Doctor--or Senator Cassidy said, 
there is no proven instance of children giving this disease to 
teachers or parents. Why, then, are the school districts being 
so careful in closing?
    Dr. Jha. So this is complicated, and it is multi-factorial. 
So first of all, I think there is no doubt in my mind that 
younger kids are much less likely to spread this than older 
kids. So I think most of the evidence says that older kids, 
high schoolers essentially spread like adults.
    The issue of why we do not have a whole lot of evidence of 
that kind of spread is we have not had schools open in the 
past. During the pandemic, schools have been closed. So of 
course we have not had a lot of instances of kids spreading it 
to parents.
    Now we are opening schools, and we are about to find out. 
This is incredibly frustrating, because the cost of keeping 
schools closed and virtual is massive. It is massive on kids. 
It is massive on parents. It disproportionately affects poor 
and minority kids and families, and it disproportionately 
affects women in terms of the labor force.
    We can all talk about gender equality, but we know the 
realities that women bear the brunt of this. So what we know 
is, if we can lower the levels of virus in the community, if we 
can speak with nuance to teachers, instead of sort of 
blustering that everybody has to open, and if we can understand 
the fears and address them through testing and through mask 
wearing and improving ventilation in schools, I believe we can 
get a majority of American schools open. But we have got to 
build trust in people. We cannot bully them back into school. 
It will not work, and teachers will not tolerate it, and 
parents will not tolerate it.
    So we just have to have a level of nuance we do not have 
right now.
    Vice Chairman Beyer. Thank you very much. To quote the 
Chair of the House Education and Labor Committee, Bobby Scott, 
who says we want schools open. We just want them opened safely.
    Now let me recognize the Chairman of the Joint Economic 
Committee, Senator Lee.
    [No response.]
    If Senator Lee is still there with us?
    [No response.]
    And if Senator Lee is not available at the moment, I am 
going to move to the next Republican on the list, and the 
Ranking Member from the House, Congressman Schweikert from 
Arizona. David? We cannot hear you yet, but you are up.
    Representative Schweikert. Let's see. Are we working now?
    Vice Chairman Beyer. Yes.
    Representative Schweikert. Could we continue on that line 
of thought you were just having? One of the other weird little 
side projects in our office has been trying to get a thought 
about daycare, without schools opening. Is that almost like a 
wall, a barrier to sort of step up economic activity? You know, 
I see what we have gone through with a kindergartner and home 
schooling until she could begin public schools this last week.
    Has anyone actually, first, given that some thought, or 
seen some modeling data that says we cannot grow--we cannot get 
a certain sort of GDP economic expansion until we actually have 
an ability for our children to be in schools or daycare?
    Dr. Goolsbee. This is Austan Goolsbee. A hundred percent 
that is a barrier for a lot of the workforce to come back to 
work. And there have been a few labor economists that have been 
trying to quantify that. I definitely think that you are onto a 
critical element.
    This question of what would it take to be able to reopen 
the schools, and what would it take to be able to reopen 
daycare and other child care options, for the median, let's 
call it occupations at the median income and below, I think it 
is critical, a tremendously critical issue because such a high 
share of those occupations must physically be at their location 
of work to do the job.
    So I think you are on to something, and I can try to get 
you some of the evidence that they have accumulated.
    Representative Schweikert. That would be helpful. And this 
is actually one of my great frustrations, from those out in the 
Phoenix-Scottsdale area. We can see school districts backing up 
to each other, they have different opening policies.
    I despise anecdotes, but I am going to tell one. Having a 
little girl who has started kindergarten, her first three weeks 
of sitting behind a laptop, isolated, she was miserable, 
begging ``Daddy, Daddy, please don't make me do this.''
    This last week when she is now allowed to go to school in a 
classroom, mask-wearing for everyone. It is as if I have a 
different daughter. So I am assuming many of us have 
experienced that.
    How do we actually sort of have a world where it is not 
politics, or lobbying, but it is actual math, saying ``here are 
the things we do to keep the teachers and our schools safe,'' 
with an understanding of how important this is to the economic 
expansion, economic survival, of our country?
    And share with me. Go ahead.
    Dr. Goolsbee. Congressman, who goes first?
    Representative Schweikert. Let's do Jeffrey first, and then 
the Professor.
    Dr. Singer. Well I was just going to say, a part of the 
problem is to get the teachers to overcome their fear. There 
was some--for example, Taiwan, which you talked about, has a 
success story. To my knowledge, they never closed their 
schools. Many schools in Europe have had their schools, at 
least for K through 6, the grade school, they have had them 
open for months and there have been no reported problems.
    And then here in the United States, for example, during the 
worst time of the outbreak in the New York Metropolitan Area, 
the department of education and I think just New York City had 
daycare for their first responders, and there were no reported 
outbreaks with these children in daycare centers, which, you 
know, that should calm a lot of fears.
    Nevertheless, what we see happening is, in many instances, 
the teachers themselves are saying, ``I'm not comfortable going 
back.'' So part of it is having them, having their fear 
managed.
    Representative Schweikert. Thank you, Dr. Singer.
    Professor.
    Dr. Jha. So I have spent more time on this topic than any 
other in the last three months. I've probably spoken to a 
hundred different teachers' groups, school superintendents, 
mayors, governors, on this. A couple of things.
    First of all, Dr. Singer is absolutely right that many 
European countries, Taiwan, has been able to open up. The 
levels of virus in their community were such that it was much, 
much lower than our American average. But nobody lives in 
America. People live in Arizona, or Texas, or Massachusetts. So 
we have to look at local community spread. And I think about a 
third of the country could go back to school quite safely, 
given the level of spread.
    In another third, we do need to bring it down a little. You 
could open up K through 6 quite easily now. But for older kids, 
you want to have that virus level a little bit lower.
    Everybody has got to wear a mask. And in other parts of the 
country, the virus levels are so high that we really do need to 
work on bringing it down.
    And again I would close bars, and I would close indoor 
dining before I closed schools. That is a priority and value 
judgment that I would make. If we did this, and if we took this 
with nuance as opposed to bluster of--I find myself in the 
mornings arguing how to open schools, and in the afternoon 
trying to explain to people why you can't open schools. And 
people are like what side are you on? I'm like, the data. We 
have the data. I think we can get most schools open if we let 
the data drive our decision making.
    Representative Schweikert. Mr. Chairman, thank you for your 
patience. I have become quite convinced that for those folks in 
Maricopa County, we are seeing some very good numbers right 
now. There is a path to having our schools safely opened, and I 
think we know it. They fear this, they fear that, and if those 
on the left, those of us on the right, could come up with a 
common language to mitigate fear and move to facts, I think it 
would be very powerful to the economics of this country.
    So with that, I yield back, Mr. Chairman.
    Vice Chairman Beyer. Thank you, Congressman Schweikert, 
very much. I now recognize Congresswoman Joyce Beatty from 
Ohio.
    Joyce is still with us?
    [No response.]
    Give her another couple of seconds here. Is Senator Lee 
with us, I ask again.
    [No response.]
    And let me move, how about--thank you for your patience. 
Both Houses are voting this afternoon, and so they go back and 
forth and back and forth. Is Congressman LaHood from Illinois 
with us right now?
    [No response.]
    And finally I am going to try another doctor, Doctor 
Senator Cassidy? Did you hang around for a second round?
    Senator Cassidy. I sure did.
    Vice Chairman Beyer. Senator, the floor is yours.
    Senator Cassidy. Thank you. Let me see if I can get my 
video going, not that you care to see me [laughing].
    But, Dr. Jha, we do need to distinguish. You say some 
schools should, and some schools should not, but we really need 
to distinguish between K through 6, for example, and high 
school. An 18-year-old is an adult, effectively, 
physiologically in terms of infectious disease. But it does 
seem like primary schools is much less.
    And I say that because, again going back to the opportunity 
costs of a 5-year-old in an inner city or rural setting in 
which parents do not have access, or if they do, lack 
familiarity. It does seem as we say ``schools,'' you speak of 
nuance, we should be nuanced that it is K through 6 that we 
feel, or K through 8, that we feel freer about.
    And you just mentioned, Dr. Singer, like there have been a 
million kids in Quebec that have gone back to school, and I 
think 0.031 percent have been infected. And all the children in 
other countries that we have mentioned. So although the U.S. 
does not have the data, there is data worldwide. So going back, 
my point being would you agree that when we say ``schools,'' we 
must speak with nuance and not just say ``schools,'' but 
differentiate primary versus secondary?
    Dr. Jha. Yes, Senator, absolutely. Absolutely. So let me 
say two things about this. You know, we in our tracking that we 
do on global epidemics dot org, we split the country into 
green, yellow, orange, and red. Everybody in green zones--there 
are not that many of them--should be back in school. In yellow, 
probably everybody can go back. Definitely K through 6. High 
school, we can. In orange, we have actually argued that K 
through 6 should go back. And that gets you a vast majority of 
the country.
    There are some places--now we can talk about Quebec and 
Europe. They never opened up schools with the kind of case 
levels that we have had in some parts of our country. And so 
that would be, in my mind, not based on what the evidence or 
experience of other places have been.
    And I am much more, based on the modeling data, I am much 
more hesitant in places with very large community transmission 
happening, but to say it is totally fine for a 5th grader.
    Senator Cassidy. So this goes back to the opportunity 
costs, because if the 5th grader stays at home and not be 
evaluated by the school psychologist to look for abuse, not to 
get the meals, not to have the in-person instruction, and 
basically probably not get any instruction whatsoever for still 
extremely low risk of infection or serious infection, extremely 
low risk, it just seems like we have a tradeoff.
    Dr. Goolsbee, it was interesting, earlier he said it is 
rare that an economist advocates wearing a mask. But I think we 
need more doctors advocating open up, because of the 
opportunity cost of the children, particularly the younger 
children, staying at home.
    Dr. Singer, do you want to weigh in on that?
    Dr. Singer. Yeah, that is sort of what we call the unseen, 
you know, the costs that are not seen as opposed to what is 
seen. And, for example, as you know, Dr. Cassidy, there are 
crucial actually periods of development, psychological 
development, cognitive skill development, social development, 
and quite a lot of these very young children are missing out 
on. And some of this could be very difficult to make up.
    And then of course there are also the social determinants 
in health. Some children come from households where they are 
subject to child abuse or neglect, where they do not get proper 
nutrition, and this is provided for them in the school system. 
So these are all other costs that are not being taken into 
account.
    And I personally, I saw just the other day the CDC's latest 
estimates of infection fatality rates, not case fatality rates, 
and I think the estimate, if I remember correctly, was 0.0037 
percent infection fatality rate for children under age 18. So 
you need to kind of put everything in perspective and balance 
what is the risk of them dying from a COVID infection versus 
the risk of them dying from child abuse or neglect.
    Senator Cassidy. So, Dr. Goolsbee, let me, again in full 
disclosure, my wife is on the board of a school for children 
with dyslexia. And most of the children come from less well-off 
backgrounds. Illiteracy is of course is a major risk factor for 
future involvement with the criminal justice system. Illiteracy 
is a major risk factor for incarceration, future incarceration.
    And if you look at the reading scores, children of color by 
grade 3 or 4, 50 percent of them are reading below grade level. 
So again I go back to, I think we are in agreement. I think I 
am just pushing this point because--Dr. Jha, I am going to 
disagree with you. I am going to say, on this I will disagree, 
and I like Dr. Goolsbee with his experience with the Chicago 
educational system. If you have a 5-year-old from an 
impoverished background, and she or he is not in school, you 
are going to affect their future life. Possibly, in fact indeed 
probably increasing their risk for future incarceration, for an 
extremely low risk of infection on these complications of 
infection.
    So I keep feeling like we are being so careful about the 
spread of disease that we are being less careful--and I do not 
want to put words in your mouth, Dr. Jha, I have respect for 
you--less careful about the long-term consequences of a child 
not being in school. And I apologize because that was an unfair 
characterization, although I think you did say in the red zone 
you would still be nervous about primary school children 
attending.
    But, Dr. Goolsbee, why do you not speak, and then I will 
give Dr. Jha the last word.
    Dr. Goolsbee. Okay, as I said at the beginning, I am quite 
sympathetic with the concerns about what you are calling the 
opportunity costs. We do still--and we do still need to, even 
if the kids themselves get sick, the fatality rate is low, we 
need to monitor whether they are coming home and getting their 
grandparents infected. If they are not, then that goes into the 
math category of here are behaviors that we can open up and 
allow without increasing the rate of spread of the virus.
    It sounded like what Dr. Jha was emphasizing is that in 
places that are in the red, and there is high community 
transmission, there might be an elevated risk that the kids 
themselves would not get sick, but they would come home and get 
mom and dad sick, and maybe brother and sister sick. And, that 
that kind of goes back to our critical thing about what is the 
number one rule of virus economics. You have got to slow the 
spread of the virus.
    And in countries where they have got low rates of 
infection, they have gone back to school. And I do think that 
is critically important, especially in these unequal times.
    Senator Cassidy. Dr. Jha.
    [Pause.]
    We cannot hear you.
    Dr. Jha. Sorry. You would think I would know this by now. 
The last thing I would say is, two quick things.
    First of all, we have not seen any place that has really 
tried to open up schools in that kind of red zone, but one 
place that did try it a few months ago was Israel and they 
ended up having pretty large outbreaks. I believe in data. We 
have got a lot of evidence to drive this thing.
    The other part of this is that schools are not just run--
don't just have kids. They have adults. And adults can transmit 
to each other, and teachers can transmit to other teachers.
    I agree that we do not have a lot of evidence to show that 
that has happened. What I would like to see is, if we are going 
to try those places, be very honest with people that we do not 
have a lot of evidence. Get everybody to wear masks, and 
collect data very, very carefully.
    I also think, let's get the red zones into orange and 
yellow zones by closing bars, by getting people to wear masks, 
by improving testing, and then we can stop even disagreeing 
about the red zones because we will all agree that getting 
especially younger kids, but probably everybody, back to school 
is clearly the right thing to do for kids, parents, and 
everybody else.
    Senator Cassidy. Thank you, Mr. Chairman. Thank you for 
your indulgence. I yield back.
    Vice Chairman Beyer. Thank you, Senator, very much. I now 
recognize my friend, the Congressman from Maryland, Mr. Trone.
    Representative Trone. Thank you, Mr. Chairman. I appreciate 
it.
    As a fellow businessman, I am concerned about the grave 
impact the pandemic has had and will continue to have on small 
business. In July, I co-sponsored a Jobs and Neighborhood 
Investment Act with Senator Warner on the Senate side, to 
invest $18 billion in low-income and minority communities that 
have been hit the hardest.
    The bill provides funding and support to minority finance 
institutions to expand the flow of credit and prevent permanent 
damage to these communities.
    Dr. Goolsbee, do you see a connection between the 
devastating impact COVID has had on Black, Latino, other 
minority communities and the accelerated losses we have seen 
among minority owned businesses?
    And also, secondarily, how do we craft responses? How 
should we craft responses to respond to these policies that 
address the systemic inequities?
    Dr. Goolsbee. Well your first question is easy to answer. A 
hundred percent yes, I think those are highly related. That the 
communities where you have seen the impact of the disease will 
be among the highest among communities of color, and lower-
income communities. Those are very much places where the job 
impact has been the most negative, and where the income impact 
has been the most negative.
    On the second question of what do we do about that, that is 
a harder one. In the short run, as I said, I think you have got 
to stop the spread of the virus, everything you can on the 
public health side. And I believe that you have got to provide 
continued relief and rescue efforts to prevent permanent 
liquidation and permanent damage from what is supposed to be a 
temporary health shock.
    So I would still emphasize those two points. In the longer 
run, these issues of racial inequality and income inequality, 
there are a lot more moving pieces as you know, and so I 
probably should not weigh in on that in this spot.
    Representative Trone. So, Dr. Goolsbee, to continue on the 
same line of thinking, before the pandemic people reentering 
society from incarceration had significant barriers to labor 
markets. Seventy-five percent formerly incarcerated still 
unemployed a year later. Impact particularly felt by justice 
impacted Black and Latino communities when the unemployment 
rate was 3.4. Before the pandemic, we had a huge untapped 
resource to help fill jobs.
    One ACLU report notes we lose between $78 and $87 billion 
for our Gross National Product by excluding the formerly 
incarcerated from the workforce. And that is why I introduced 
the Workforce Justice Act, to ban the box on employment 
applications.
    When we create hiring practice inclusive of people with 
criminal records, we all benefit. Now we are facing 
unemployment rates in double digits for Black and Latino 
populations. Simply put, too few jobs for too many job seekers, 
and we know which populations are most vulnerable to being left 
out.
    So in this recovery, how do we ensure our unemployment 
policies do not continually focus the same way, but fully 
include Black and Latino populations, but also the justice-
impacted individuals? And why is it so important to be 
inclusive in our employment policies? And what are those 
economic benefits?
    Dr. Goolsbee. Well you have got a lot going on there, 
Congressman, and I appreciate and I applaud your efforts to try 
to reincorporate the formerly incarcerated into the workforce. 
In both the education space--I am on the board of the Lumina 
Foundation in Indiana that tries to increase educational 
attainment in the United States, and they have identified the 
formerly incarcerated as an important category of people where 
training can be useful.
    It is not my specific area of expertise. I know there are a 
number of economists that have looked at what policies are most 
effective, and incorporating them back into the labor market.
    I do know that, as you highlight, in a period where we are 
going to have very substantially elevated unemployment rates, 
it is going to have a disproportionately negative effect on 
anybody that was on the fringes of the labor market before this 
crisis began.
    So think of it as: if you are formerly incarcerated, as 
hard as it is to find a job when the unemployment rate is 3.5 
percent, imagine how hard it is going to be to find a job when 
the unemployment rate is 8.5 percent.
    So I do think that that at-risk groups and hard-hit groups 
in this recession, we have got to make a concerted effort to 
both slow the rate of spread of the virus, and make sure that 
the recovery is widespread; that it is not what I would 
characterize so far as rapid rebound among occupations where 
you can do your job over the computer, which tend to be higher-
income occupations.
    That has characterized much of the recovery so far, and I 
do think that we have got to be really concerned about that.
    Representative Trone. Doctor, thank you very much. And as a 
Wharton grad, I hope you lose that Chicago Booth before----
    Dr. Goolsbee. Oh, no.
    Representative Trone. You are killing us. I yield back.
    [Pause.]
    Dr. Goolsbee. Is everyone muted, or am I muted? This is one 
of the--you cannot tell whether you are the one who is frozen, 
or everyone else is frozen.
    Dr. Jha. E are all just waiting to see if Congressman Beyer 
or Senator Lee come back.
    Ms. Volk. Hey, everyone. So Senator Lee had to step out, so 
that is going to be the end of the hearing. Thank you all so 
much for coming. Apologies for any sort of technical 
difficulties, but thank you all so much for coming, and have a 
wonderful afternoon.
    Dr. Jha. Bye, everybody.
    [Whereupon, at 4:25 p.m., Tuesday, September 22, 2020, the 
hearing was adjourned.]

                       SUBMISSIONS FOR THE RECORD

Prepared Statement of Hon. Donald Beyer Jr., Vice Chair, Joint Economic 
                               Committee
    Today's hearing will be unlike almost every hearing ever held by 
the U.S. Congress Joint Economic Committee.
    Most often, our hearings explore economic issues. Today, we will 
focus on public health.
    When the explosion of coronavirus cases in March caused massive 
unemployment in April, JEC Democrats reached out to some of the most 
prominent economists and public health experts in the country.
    Two Nobel-prize laureates, two winners of the John Bates Clark 
medal, five former Chairs of the President's Council of Economic 
Advisers and three former Presidents of the National Economic 
Association--over two dozen in all.
    Every one of them conveyed the same urgent message--the top 
priority for healing our crippled economy is to contain the 
coronavirus.
    Economist Austan Goolsbee, here with us today, has put it this way: 
``the number one rule of virus economics is that you have to stop the 
virus before you can do anything about economics.''
                            cases and deaths
    And yet, tragically, we have failed to control the coronavirus.
    Two hundred thousand Americans are dead--more than in World War I, 
the Korean War and Vietnam combined.
    The United States has only 4% of the world's population but 
approximately 21% of worldwide deaths.
    There have been almost 7 million confirmed cases of COVID-19 in the 
United States--this likely is a severe undercount.
    And the number of cases continues to explode, with about 40,000 new 
positive tests a day.
                     the economy has been hit hard
    As a result of this crisis, our economy has suffered a severe blow.
    There are nearly 12 million fewer jobs today than in February.
    The official unemployment rate is 8.4%--almost two and a half times 
what it was in February.
    Federal Reserve Chairman Jerome Powell says that the actual rate 
could be 3% higher due to problems with misclassifying workers and 
differentiating those who have left the labor force from the 
unemployed.
    3.4 million U.S. workers are now permanently unemployed--and the 
number is rising.
    Almost 30 million depend on an unemployment check to survive.
                      the president is the problem
    Two hundred thousand deaths, economic devastation, a contagion 
still out of control.
    Tragically, no one person in our country is more responsible than 
the person who should be leading the fight to contain the coronavirus.
    The President of the United States.
             the president's lies cause preventable deaths
    President Trump's record on the coronavirus is a stunning mix of 
incompetence, ignorance and callous disregard for human life.
    He lied to Americans, telling them that the virus was a 
``Democratic hoax'' and that it would ``magically disappear.''
    At the same time, he privately admitted to Bob Woodward that the 
coronavirus was five times as deadly as serious strains of the flu--
``deadly stuff.''
              the president refused to take action quickly
    The President should have used the early weeks of the crisis to 
test for and trace the virus, purchase PPE and ventilators, and to 
educate the public about the steps all Americans should take to protect 
themselves and others.
    However, it took more than seven weeks after the first confirmed 
case in the United States for him to declare a national emergency.
    If America had moved a week or two sooner to implement social 
distancing measures, it would have saved tens of thousands of lives, 
according to research from Columbia University.
                  trump ignores public health experts
    The President ignored the advice of public health experts. He said 
that he knew more about public health than they did.
    He mocked people who wore masks and he refused to wear one, despite 
the fact that masks can play an important role in slowing the spread of 
the virus.
    He endangered people's lives by promoting the use of 
hydroxychloroquine, which has been shown by scientists to have no 
impact on treating COVID and carries substantial risks.
    He recommended injecting disinfectant to fight the virus--and 
sadly, some Americans did.
    He claimed that children are ``almost immune.''
    In every case, the President was wrong--dead wrong.
           trump pushed aggressively for premature reopening
    Public health officials argued that reopening prematurely would 
lead to a second wave of infections and deaths.
    But the President ignored them. He said in March that ``we cannot 
let the cure be worse than the problem itself.''
    He goaded governors to reopen the economy.
    He told Americans that public health measures were tyranny: he said 
to ``liberate Michigan'' while supporters demonstrated (with guns) at 
state capitals.
    And he held large political rallies, defying experts, who warned 
that these could become super-spreading events.
    As a result of these reckless and callous actions, coronavirus 
cases spiked and people died.
    The number of new infections on Labor Day were double what they 
were on Memorial Day. Forty thousand new cases per day.
                         the president's gamble
    The President's insistence on prematurely reopening the economy had 
a self-serving purpose--to make the economy look stronger in the months 
leading to Election Day.
    As Washington Post columnist Catherine Rampell pointed out back in 
April, it was a big gamble--a gamble with American lives. A gamble with 
the U.S. economy.
    The gamble already has resulted in more cases and more deaths, but 
in the short term it made the economy look better.
    Between May and August, the economy regained about half of the jobs 
lost.
    The unemployment rate dropped from almost 15% to 8.4%--still about 
2.5 times higher than in February.
    The President is betting that the next jobs numbers, when they are 
released next Friday, will continue to show marginal improvement--
     . . . And that the cost of reopening too soon won't be obvious 
until after the election.
    While we don't know what the numbers will reveal, one thing is 
certain: the true impact of the President's gamble won't be evident 
until it's too late.
                        trump's economic legacy
    Donald Trump holds the vast power of the U.S. Presidency--but he 
has refused to use it.
    He has not contained the coronavirus, but has unleashed it.
    As a result, many more lives will be lost.
    And in the long term, the economy will suffer.
    The President's failure to make even the most meager effort to 
contain the coronavirus is his economic legacy.
    I look forward to the testimony of our witnesses.
                               __________
Prepared Statement of Hon. Mike Lee, Chairman, Joint Economic Committee
    Thank you, Vice Chair Beyer, for chairing today's hearing on this 
important topic.
    The novel coronavirus, as it has swept across the Nation and the 
world this year, has left a trail of devastation in its wake. It has 
imposed not only serious physical disease, but severe economic ills, as 
well. Jobs have been lost, businesses have been shuttered, and whole 
sectors of industry have been disrupted.
    In response to such an unprecedented crisis, we have taken 
unprecedented government action. But, as in the successful treatment of 
any illness, we must first make sure that we are using the proper 
remedies.
    So as we take stock of our response to the current pandemic, we 
should consider how policy has both hurt and helped so far, and what we 
can improve to have the right solutions going forward--for this public 
health crisis and the next.
    While some have called for a still more aggressive Federal response 
through more stimulus, a nationally coordinated response led by the 
Administration, and more widespread lockdowns, the benefits of such 
policies must be weighed against both their economic costs and their 
unintended consequences.
    For instance, we know that large-scale stimulus exacerbates our 
already whopping national debt and can crowd out private investment. 
Additionally, the enhanced unemployment benefits included in the CARES 
Act provided a disincentive for those who are unemployed to return to 
work, thus inhibiting economic recovery.
    In addition to economic devastation, lockdowns have had other 
negative effects. Mandated isolation has spurred or worsened mental 
health issues for many people, and stopped others from getting routine 
health screenings and vaccinations, causing death or illness that 
otherwise might have been prevented.
    In fact, as the second wave of the coronavirus has been rebounding 
across Europe, the continent's governments are now intent on avoiding 
large-scale lockdowns and instead focusing on tailored, localized 
measures to combat outbreaks, based on the knowledge we have today on 
how to best manage infections.
    Finally, we ought to make sure that the Federal policy is not 
inhibiting sound and effective solutions. Unfortunately, evidence shows 
that it already has--especially in the early days of the crisis. For 
instance, outdated ``Certificate of Need'' rules prevented hospitals 
from acquiring new beds and equipment; and the FDA and CDC laws against 
at-home testing posed an early barrier to disease control. But perhaps 
the worst failure of all was that the sheer bureaucratic chaos that 
fatefully delayed effective testing for an entire month.
    Thankfully, we have already removed some regulations that were 
impeding a more effective pandemic response. Two important changes have 
been allowing doctors to practice medicine across state lines, as well 
as allowing doctors to provide telemedicine. This is exactly the kind 
of regulatory flexibility we should consider going forward so that we 
can quickly, creatively, and freely administer care to those who need 
it.
    As we continue to respond to the coronavirus, we must acknowledge 
the ways that sweeping, centralized, ``one-size-fits-all'' government 
policies can ultimately worsen our attempts at recovery.
    If we are to have flexibility and resiliency--in the face of this 
crisis and the next--we ought to instead empower our states and 
localities, who best understand their own resources, needs, and 
communities.
    The American people have always played a critical role in governing 
locally, volunteering, and innovating to respond in times of crisis. I 
look forward to hearing our panelist's contributions today as to how we 
can continue doing just that.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  

                                  <all>
</pre></body></html>
